LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 1, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-251:
RE 19-255:

AMERICANS FOR PROSPERITY FOUNDATION V. XAVIER BECERRA, ATTORNEY
GENERAL OF CALIFORNIA
THOMAS MORE LAW CENTER V. XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA

Dear Sir or Madam:
I hereby certify that at the request of Counsel for Amici Curiae Judicial Watch, Inc. and
the Allied Educational Foundation, on March 1, 2021, I caused service to be made pursuant to
Rule 29 on the following counsel for the Petitioners and Respondent:
PETITIONER AMERICANS FOR
PROSPERITY FOUNDATION:
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
202-538-8000
derekshaffer@quinnemanuel.com

RESPONDENT:
Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
916-210-6003
Aimee.Feinberg@doj.ca.gov

PETITIONER THOMAS MORE LAW
CENTER:
John J. Bursch
Alliance Defending Freedom
440 First Street NW, Suite 600
Washington, DC 20001
616-450-4235
jbursch@adflegal.org
This service was effected by depositing three copies of the Brief of Amici Curiae Judicial
Watch, Inc. and the Allied Educational Foundation in an official “first class mail” receptacle
of the United States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 1st day of March 2021.

